No. 20-794

 

 

IN THE
Supreme Court of the Anited States

SERVOTRONICS, INC.,

Petitioner,
v.

ROLLS-ROYCE PLC, ET AL.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

BRIEF AMICUS CURIAE OF
THE INTERNATIONAL COURT OF
ARBITRATION OF THE INTERNATIONAL
CHAMBER OF COMMERCE
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,063 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

J declare under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2021.

Ade

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

   
